THE SUPREME COURT OF UNITED STATES OFFICE OF THE CLERK
WASHINGTON D.C. 20543-0001
LOWER CASE APPELLATE DIVISION
NO-A004887-16 DENIED

DONNA RAIVELY PETITIONER

V.
THOMAS WH ELI HAN ESQ RESPONDENTS

U.S. SUPREME COURT OF UNITED STATES
NO: 20-6295 DENIED MARCH 8,2021
THE SUPREME COURT OF UNITED STATES
OFFICE OF THE CLERK WASHINGTON D.C. 20543-0001
ON WRIT OF CERTIORARI TO THE UNITED STATES OF APPEALS REQUESTING FOR
APPENDIX REHEARING AND EN BANC FOR GOOD CAUSE DENIED ON DATING
MARCH 30,2021

DONNA RAIVELY (party unrepresented)
PO BOX 133
MILLVILLE N.J. 08332
856-459-5770
C

\

I

THE SUPREME COURT OF UNITED STATES OFFICE OF THE CLERK
WASHINGTON D.C. 20543-0001
/
t
DONNA RAIVELY (party unrepresented)
V
THOMAS WHELIHAN ESQ
DATE: 4/13/2021

STATEMENT
STATEMENT ALONG WITH NEW EVIDENCE NOT HEARD BUT IN GOOD FAITH NOT
PREVIOUSLY PRESENTED
PAGES: lb,2b,3b
1. Arbitration Committee Grievance Complete In Question
2. Cumberland County Case Estate R:l.l, RPC 1.2, Rpc 1.3
3. Rules Governing the Courts: R N.J.A.42-12b-3,Rl:21 lb
4. Rules of Professional Conduct: Rl:28
5. Unjust Enrichment Section 7708 Michigan Trusr Code (MTC) 7207
6. Fee's Paid Under Trustee
7. Guardian And Conservation Fee’s
8. Cumberland County Sheriff U.S, Code 10 921- ARt.121

DONNA RAIVELY
PO BOX 133
MILLVILLE N.J. 08332

PRELIMINARY STATEMENT
IN GOOD FAITH WITHOUT DELAY
NO: 20-6295
ARBITRATION COMMUTE IN QUESTION
I put in a complete and grievance after the board reviews our hearing I ask to review the
decision, their job was to resolve the case between Raively v Whelihan, I'm asking the court to
dismiss their decision, I did not have a chance to be heard with the board, the board members
are attorneys hearing the case, Whelihan is an attorney, he was on trial the case became
personal.(see copy)
The hearing with the board was very hostile, the decision was improper, my hearing was cut
short, and a woman had to leave due to a doctor’s appointment, the meeting was very hostile.
The ethics committees did not want to restrict upon disciplined of Whelihan.
A trustee should have been appointed to control the attorney’s legal affairs and protect me
With knowing this now, I believe there was intent towards me as being a victim, taken advantage
of me not knowing the law.
CUMBERLAND COUNTY CASE ESTATE:
Whelihan was hired to do an estate case, during the case my incompetent sister who at the time
I had guardian of, guardian case was granted court matter years before the estate came in
place.
Whelihan challenges the case and puts the guardian case in with the estate case where my
sister was “not mentioned or part of the will” he can’t do this, this becomes a civil matter.(see
copy)
Whelihan know I was very upset, he just was not doing anything, all he stated just take the offer
because that is all your going to get.
During the case being heard, I lost guardianship of my sister, I lost money of her account,
where there was an order to split her money because my sister goes back and forth both
sister’s homes.
The only good thing he did was asks the courts for me to get yearly reports on her financial
situation for my other sister to send the reports to me and the courts.
This order has left me to this day a burden in my life, I'm physically drained, I'm still fighting the
courts on bad reports given to me yearly because my sister who has access to her account is
spending money, not for the incompetent sister, for her one needs.

Whelhan withdraws himself from the case, (see copy) Cumberland County 3/1,2016, and did
not notice me, this is an unethical course of action, he had a negative impact on the case, he
still should have made special efforts to help me or consider the consequences provided in rule
1.1, rpc 1.2, rpcl.3,
I am a victim suffering from physical and financial harm, Whelihan should have not put both
cases together and I should be compensated for that. “ my sister that is incompetent was not in
the will"
Rules Governing the courts: N.J.A.42-12b-3, r. l:21-lb limited liability.
RULES OF PROFESSIONAL CONDUCT: R.l:28,
Lawyer fund for client protection, losses caused by Whelihan’s dishonest conduct on a
conversation that was not entered in the contract that he promised.
UNJUST ENRICHMENT:
Fee’s paid under the trustee:
A conversation with Whelihan was brought up on this for the estate to pay my attorney fees,
Whelihan promised that this would take place but never did, all he needed to do is put in an
application to the courts.
Section 7708 of the Michigan trust code (MTC) governs compensation of a trustee, Whelihan
should of challenge the cour, if I only had knowledge this would have been brought up myself to
the courts, section 7207 gives the courts the power to order a refund finds that compensation
was excessive, protecting my interest.
GUARDIAN AND CONSERVATOR FEES:
On any accounting interest person to review for any objection for a lifetime, Whelihan was not an
attorney for me to protect my interest, I’m requesting the courts for Whelihan to pay back the
fees paid to him.
CUMBERLAND COUNTY SHERIFF:
4/30/2018 the sheriff comes to my house starts taken inventory beds, living room, kitchen
future, etc, when it came to taking away my grandchildren belongings I became “furious”,
Whelihan and I had a mutual conversation and agreed when the house sales he would get
payed “there is no proof of this, only thing is the agreement contract were it does state Whelihan
would send statements, monthly of what I owe him, he never did this, this is my only proof I’m
not lying, “see contract” if he were asked to prove this he would not have this proof, all this was
mentioned during the arbitration hearing. “See the article of the house up for sale listed

lb

12/6/2018,” did not sell I was forced to get a loan on the estate property, to pay Whelihan, before
the sheriff came to sell my family belongings cheap.
In the process, I decided to put all my debt together for a loan which cost me $5,000.00 to do
this, Whelihan knowing I have custody of three children, I brought them to his office at times,
knowing he could do this to children, he had intended to harm my family “neglect to children".
This is a case of larceny depriving the children of their belonging, wrongful approach U.S. code
10 921-art. 121

THE SUPREME COURT OF UNITED STATES OFFICE OF THE CLERK
WASHINGTON D.C. 20543-0001
NO: 20-6295

DONNA RAIVELY (party unrepresented)
V.
THOMAS WHELIHAN ESQ

TABLE OF CONTENTS
OLD TABLE OF CONTENTS ALONG WITH NEW EVIDENCE NOT HEARD BUT IN
IN GOOD FAITH NOT PREVIOUSLY PRESENTED TO BE GRANTED BY THE COURT
1. MATTER OF RAIVELY v WHELIHAN
2.

REVIEW BOARD FACTS IN DISPUTE, FAILURE TO COMPLY, A GRIEVING WAS
ENTERED,! ASK FOR A COPY OF THE DISMISSAL, I WAS IGNORED, THE
MATERIAL AND FACTS WERE IN DISPUTE, THE CASE SHOULD NOT HAVE BEEN
TAKEN. A CASE OF CONSUMER FRAUD

3. CUMBERLAND COUNTY JUDGEMENT JUNE 27, 2017 REQUESTING FULL
PUNITIVE DAMAGES $13,952.52 PLUS LOAN APPLICATION OF $5,000.00 PAIN
AND SUFFERING DETERMINED BY THE COURTS.
4. CONTRACT BETWEEN WHELIHAN v RAIVELY A BREACH IN CONTRACT
MONITORING CONTRACT PERFORMANCE, HE DID NOT SEND MONTHY
STATEMENT 28 U.S.C.1827
5. GUARDIANSHIP OF MENTALLY DISABLED SISTER OBJECTION TO CASE BEING
HEARD TOGETHER NOT PART OF ESTATE VIOLATION OF MY RIGHT TO BE
HEARD
6. CONFLICT OF LAW AT THE APPELLATE DIVISION OBJECT OF THE DISMISSAL
APPEAL TO HIGHER COURT
7. CONSTITUTION RIGHTS VIOLATED BY LAW TO BE DETERMINED BY THE
COURTS
8. UNDER BREACH OF CONTRACT FAILURE TO PERFORM MATERIAL OBLIGATION
TO BE DETERMINED BY THE COURTS
9. APPELLATE DIVISION NO: A004887-16 RULE 2:12-7 and R.2.12-4 WITH A BRIEF

APPENDICES R.2:12-8 MR. WHELIHAN IS IN VIOLATE OF THE LAW DATING
APRIL, 2018, SEE LETTER A DEFICIENCY NOTICE TO WHELIHAN FROM
SUPREME COURT
10. I PUT IN A GRIEVANCE AND COMPLAINT WITH THE DISCIPLINARY BOARD
NOT
DUE TO THE DENIAL, I RAISED THE GRIEVANCE NOT HAVEING MORE TIME
WAS BENING RUSHED, AND BULLIED, THE BOARD WAS TO REACH A SOLUTION.
11. REQUESTING IF THIS PETITION SHOULD GO TO FEDERAL COURT OR STAY
TO BE DETERMINED BY U.S. COURTS
12. CUMBERLAND COUNTRY SHERIFF DATING JAN 4, 2019
13. THIRD PETITION BENIEDING COPY DATING 9/28/2020
8/21/2020 SEALED BY SUPREME COURT
14. MARCH 31,2021 ORDER FROM THE COURTS WHELIHAN DID NOT COMPLY WITH
ORDER COPY INCLOSED
15. CUMBERLAND COUNTY SURROGATE GUARDINSHIP 7/24/2009

THE SUPREME COURT OF UNITED STATES OFFICE OF THE CLERK
WASHINGTON D.C. 20543-000
DONNA RAIVELY PETITIONER (party unrepresented)
V.
THOMAS WHELIHAN ESQ RESPONDENTS

THE SUPREME COURT OF UNITED STATES
OFFICE OF THE CLERK NO: 20-6295 STAMP ON MARCH 30,2921

APPENDIX
OLD APPENDIX ALONGE WITH NEW EVIDENCE NOT HEARD BUT IN GOOD FAITH
NOT PREVIOUSLY PRESENTED
BOARD OF REVIEW DECISION-RAIVELY V. WHELIHAN
3/29/17, 4/28/17, 6/16/17 NO MOTION NO: 002158-17, DOCKET NO: A-4887-16T
SUBMITTED MARCH 12, 2018, DECIDED MARCH 15, 2018, COPY INCLOSE
APPEAL DISMISSED BY REVIEW BOARD JUNE 16,2017, SEE COPY DATING
3/16/17 THE U.S. SUPREME COURTS HAVE ON FILE
PG 1A
DISCIPLINARY REVIEW BOARD MR. WHELIHAN TOOK ADVANTAGE OF
DISCIPLINARY BOARD HEARING IN HIS FAVOR SEE APPEAL FORM
DATING 3/16/17 THE U.S SUPREME COURTS HAVE ON FILE
PG 2A,3A,4A,5A
CUMBERLAND COUNTY JUDGMENT JUNE 27, 2017 NO: DC-1353-17 $13,952.52
WITH THE APPEAL OF THREE HIGHER COURTS COST, HAS BEEN PAID
PLUS LOAN COST OF $5,000.00 TO PROCESS COURTS TO DETERMINEI
PG 6A,&A,8A,9A
THE PETITION FOR WRIT OF CERTIORARI IS DENIED U.S. SUPREME COURT
DENIED MARCH 8, 2021.
PG 10A
GUARDIANSHIP WAS NOT PART OF ESTATE OR WILL AND NO CONTRACT
WAS AGREED OR A AGREEMENT WITH WHELIHAN
PG 11A,12A,13A
APPELLATE DIVISION NO: A004887-16 RULE 2:12-7 and R.2:12-4 WITH A BRIEF
AND APPENDICES R.2:12-8 MR. WHELIHAN IN VIOLATE OF THE LAW DATING
APRIL, 2018, WHELIHAN IS IN VIOLATION BY THE ORDER OF THE SUPREME
COURT APRIL 17, 2018, ON MARCH 25,2019 A DEFICIENCY NOTICE TO

WH ELI HAN NOT RESPONDING

PG 14A

MOTION REQUESTING THE U.S SUPREME COURT TO RULE TO STAY OR MOVE
TO FEDERAL COURT, BECAUSE WHAT I’AM ASKING FOR ARE IN BOTH COURTS
DIFFERENT RULE
SEE COPY OF CUMBERLAND SHERIFF ORDER BY WH ELI HAN TO HAVE A
PERSONAL SALE THEY CAME TO HOUSE STARTED PRICING OUR PERSONAL
ON 4/30/2018, PROPERTY SALE WAS LISTED 12/6/2018
WE DID HAVE A VERBLE CONSERVATION THAT HE WOULD GET PAID
WHEN THE HOUSE SALES, SEE LISTING UP FOR SALE SEE COPY
INTENT TO HARM ME AND MY FAMILY AND MY GRANDRENCHILDREN
TO SALE THERE BELONGING NEGLECT OF CHILDREN
PG 15A
ESTATE HOUSE FOR SALE TO PAY WHELIHAN

PG 16A

AN OFFER OF $4,000.00 SENT TO WHELIHAN WAS SENT ON 12/10/17 TRYED TO
SETTLE WITHOUT GETTING A LOAN WHICH COST ME MORE MONEY PG 17A
ON 3/22/21 AS FOR A REHEARING THAT DENIED MY PETITION, GIVING ME 15
MORE DAY’S TO CORRECT
PG 18A
COPY OF LANDIS TITLE PAY OFF TO WHELIHAN
COPY OF CUMBERLAND COUNTY SHERIFF

PG 19A
PG 20A,21A,22A,23A

COPY STAMPED ON MARCH 30,2021 FROM U.S. SUPREME COURT
RECIVED MY PETITION ON REHEARING

PG 24A

SUPERIOR COURT CUMBERLAND COUNTY FEB,1,2016 WHELIHAN WITHDREW
FROM COURT MATTERS OF THE GUARDINSHIP OF MY SISTER, HE KNOW I
WAS VERY UPSET, HE KNOW THAT IT WAS WRONG FOR HIM TO PUT THE
GUARDINSHIP MATTER IN WITH THE ESTATE OF MY SISTER, SHE WAS NOT
IN THE WILL SO THERE SHOULD HAVE BEEN NO NEGOTIATION
PG 25A

CUMBERLAND COUNTY SURROGATE’S 7/24/2009 WHEN I WAS APPOINTED
GUARDINSHIP OF MY SISTER, WHELIHAN LOST MY RIGHTS WHEN HE
BECAME MY LAWYERN ON THE ESTATE
PG 26A

Additional material
from this filing is
available in the
Clerk's Office.

